                                       Office of Inspector General
                                                                January 2013

                                               with the owner and manager of the            with an outstanding balance of
 Business                                      recycling firm. The two planned to pre-      $1,380,486. The loan was used to fund
 Loans                                         pare, manipulate, and submit false,          the sale of a business. The indictment
                                               fraudulent, and misleading financial         alleges that the $260,000 equity injec-
                                               documents, packing lists, commercial         tion that the buyer was required to pay
Louisiana Couple Indicted on Multiple          invoices and bills of lading to a bank       was actually paid by the seller. Specifi-
Counts                                         and the SBA. This is a joint investiga-      cally, it is alleged the buyer and seller
On January 15, 2013, a Louisiana couple        tion with the Federal Bureau of Investi-     created and submitted false bank state-
was indicted on varying counts of conspir-     gation (FBI).                                ments, checks, and certificate of deposit
acy to commit mail and wire fraud, sub-                                                     receipts to represent that the funds
mitting a false document to a department       New Jersey Woman Pleads Guilty to
                                                                                            used to pay the equity injection were
or agency of the United States, and mak-       Misprision of a Felony
                                                                                            originally a gift from the buyer’s grand-
ing a false statement to the SBA. Each of                                                   mother.
them was also charged with a forfeiture        On January 22, 2013, a New Jersey
allegation. In addition, the husband was       woman was sentenced to 36 months of
charged with two counts of wire fraud.         probation and ordered to pay $40,900
                                               and a special assessment fee of $100.        Government
The couple obtained an SBA-guaranteed
loan for $560,000 to purchase a furniture      The woman had previously pled guilty         Contracting
store. The indictment alleges that the         to a criminal Information charging her
couple misrepresented the value of the         with one count of misprision of felony.
collateral for the loan; sold the collateral   The investigation revealed that an orga-     Man Sentenced in DC for His Role in
business personal property without the         nized group of criminals obtained credit     Bribery Scheme
lender’s knowledge; and falsified their        cards and loans from various lending
                                                                                            On January 31, 2013, the son of a former
personal financial statements. This case       institutions using false identities, docu-
                                                                                            program manager at the U.S. Army
was predicated on a referral from the SBA      ments, and business names. Loan offic-
                                                                                            Corps of Engineers was sentenced to 37
National Guaranty Purchase Center.             ers at various banks were also involved
                                                                                            months of incarceration followed by 36
                                               in the scheme. Many of the loans were
                                                                                            months of supervised release, and or-
Information from Early Fraud Detection         SBA-guaranteed and are in default. The
                                                                                            dered to pay restitution of $401,000 and
Working Group and OIG Audit Leads to           woman, as a member of this group,
                                                                                            a $100 special assessment fee. The in-
Guilty Plea                                    obtained a loan from a bank for
                                                                                            vestigation revealed that the man con-
                                               $50,000 using the identity of another
On January 22, 2013, a Virginia man was                                                     spired to launder the proceeds of a brib-
                                               individual. This is a joint investigation
charged by criminal Information with one                                                    ery and kickback scheme. Specifically,
                                               with the Internal Revenue Service-
count of misprision of a felony in U.S.                                                     the investigation revealed that his fa-
                                               Criminal Investigation, the Englewood
District Court, Southern District of Ohio.                                                  ther, a public official, received and ac-
                                               New Jersey Police Department, and the
On January 24, 2013, he pled guilty to the                                                  cepted things of value personally and for
                                               Bergen County Prosecutor’s Office.
Information. This case was predicated on                                                    other persons in return for funding and
information received from the OIG’s Early                                                   approving contracts. His father also pro-
                                               Alabama Man Pleads Guilty after Loan
Fraud Detection Working Group and from                                                      vided preferential treatment to these
                                               Is Flagged by Early Fraud Detection
the Audit Division. The charge relates to                                                   contractors and subcontractors for con-
                                               Working Group
a $1,715,650 loan made to a recycling                                                       tracts awarded and to be awarded
firm to finance its purchase of tire shred-    On January 28, 2013, an Alabama man          through the Corps of Engineers. This is a
ding equipment. The investigation dis-         pled guilty to one count of conspiracy       joint investigation with the FBI, IRS-CI,
closed that subject had knowledge of the       to commit loan fraud.                        Army Criminal Investigations Division,
actual commission of certain felonies,                                                      and the Defense Criminal Investigative
                                               The OIG’s Early Fraud Detection Work-
namely, making false statements on a                                                        Service.
                                               ing Group flagged this SBA-guaranteed
loan application, wire fraud, and bank         business loan of $1,529,000, for further
fraud and that he concealed those felo-        review because it had defaulted quickly
nies from authorities while collaborating
                                                                                                            Page 2

                                                  Texas Man Sentenced for
                 Disaster                         Role in Disaster Fraud            Agency
                 Loans                            Scheme                            Management
                                                  On January 18, 2013, a for-
                 Louisiana Man Pleads Guilty      mer real estate broker and        Maryland Woman and
                 to Making a False Statement      Houston area bank director        Former SBA Employee
                                                  was sentenced to 108 months       Sentenced
                 On January 17, 2013, a Louisi-
                                                  imprisonment, 3 years super-
                 ana man pled guilty to a one
                                                  vised release, and ordered to     On January 14, 2013, two
                 count superseding Infor-
                                                  pay a $30,000 fine and a $200     women were sentenced in
                 mation charging him with
                                                  special assessment fee. The       Maryland to 36 months pro-
                 making a false statement.
                                                  man was approved for              bation, and ordered to pay a
                 The man had obtained a
                                                  $999,700 in SBA home and          special assessment fee of
                 $430,500 SBA disaster loan
                                                  business disaster loans. The      $100. The women had previ-
                 for the repair of his dental
                                                  business loan was approved        ously pled guilty to wire
                 practice, which was de-
                                                  to repair or replace more         fraud.     The first woman,
                 stroyed by Hurricane Katrina.
                                                  than 40 rental properties         along with a co-conspirator,
                 According to the SBA Loan
                                                  damaged by Hurricane Ike.         was charged with one count
                 Authorization and Agree-
                                                  The investigation disclosed       of conspiracy to commit wire
                 ment, the man’s collateral
                                                  that he engaged in a fraudu-      fraud on August 8, 2012. The
                 included the property on
                                                  lent invoice scheme, where        second woman, a former pay-
                 which he would operate a
                                                  he submitted inflated and         roll assistant in the Office of
                 surgical practice, as well as
                                                  false invoices for repairs to     Human Capital Management
Louisiana Man    the fixtures and equipment
                                                  his residence and rental prop-    at the SBA, provided three
                 that he would purchase using
Pleads Guilty                                     erties to the SBA’s Fort Worth    altered copies of her own SBA
                 loan funds. The investigation
                                                  Processing and Disbursement       Earnings and Leave (E & L)
 in $430,500     revealed that the property to
                                                  Center (PDC). The investiga-      Statement to help the first
                 be used as collateral was in
                                                  tion further determined that      woman finance an automo-
Disaster Loan    disrepair; the walls were un-
                                                  in May 2012 he submitted          bile. The altered E & L state-
                 finished with exposed studs
    Fraud                                         additional property appraisals    ments reflected that the first
                 and there was no source of
                                                  that were inflated, in order to   woman was an SBA employ-
Investigation.   permanent electrical power.
                                                  lower his sentence. As a re-      ee, even though she had nev-
                 There were also no furnish-
                                                  sult, the judge revoked his       er worked at the SBA, and
                 ings, fixtures, or equipment,
                                                  pre-trial release and remand-     was not employed at the
                 even though notes in SBA’s
                                                  ed him into custody for ob-       time. When the automobile
                 Disaster Credit Management
                                                  struction of justice. This is a   dealership requested addi-
                 System indicated the busi-
                                                  joint investigation with the      tional proof of employment,
                 ness was fully operational.
                                                  Department of Homeland            the former SBA employee
                 The subject submitted fraud-
                                                  Security OIG. This case was       faxed a fourth altered E &L
                 ulent invoices to the SBA in
                                                  referred to the OIG by the        statement from SBA head-
                 the amount of $56,449.91
                                                  SBA PDC, Fort Worth, Texas.       quarters in Washington, DC,
                 and used the SBA funds for
                                                                                    to the dealership in Mary-
                 living expenses and gambling.
                                                                                    land.
                 He also received $150,000
                 from the Louisiana Road
                 Home program based on an
                 application he filed for dam-
                 ages to a home he did not
                 live in at the time of Hurri-
                 cane Katrina. This is a joint
                 investigation with the U.S.
                 Housing & Urban Develop-
                 ment OIG and the FBI.
                                                                                                                            Page 3


                                 Audit Report 13-10
                                 On January 25, 2013, the OIG issued Audit Report 13-10, The Small Business Administration Did
 Office of Inspector General     Not Effectively Assess Disaster Assistance Staffing Requirements, Availability, and Readiness.
                                 The objective of this audit was to determine if the SBA maintained a sufficient reserve work-
Peggy E. Gustafson, Inspector
                                 force to respond to a catastrophic event equivalent to the 2005 Gulf Coast Hurricanes. The fo-
            General
                                 cus of this audit was limited to SBA’s staffing and mobilization readiness.

If you are aware of suspected    The OIG found that it would be a challenge for the SBA to provide timely, quality assistance to
                                 the disaster victims during a catastrophe similar to the 2005 Gulf Coast Hurricanes. Based on
waste, fraud, or abuse in any
                                 the agency’s projections, the Office of Disaster Assistance (ODA) would need to acquire an ad-
SBA program, please report it    ditional 2,400 employees to respond effectively to a disaster of similar magnitude. The OIG
        online at http://        also found that the ODA did not have a process or written procedures to accurately identify the
    www.sba.gov/office-of-       number of reserve staff available to respond to disasters.
    inspector-general/2662
                                 The OIG recommended that the Agency: (1) develop a plan that ensures the biennial simula-
                                 tion exercise includes an assessment of human capital necessary to respond to the level of dis-
 Or call the OIG Hotline toll-   aster selected for the simulation exercise scenario; (2) implement a corrective action plan to
   free, at (800) 767-0385       address deficiencies identified during the biennial simulations; (3) develop a process that accu-
                                 rately identifies the total number of reserve staff available for mobilization and specifies the
We welcome your comments         frequency of such an analysis; and (4) develop written procedures that define ODA’s process
 concerning this update or       for determining the number of reserve staff available to respond to disasters
 other OIG publications. To
   obtain copies of these
documents please contact us
            at:

          SBA OIG
    409 Third Street SW,
         7th Floor
   Washington, DC 20416
    E-mail: oig@sba.gov
 Telephone: (202) 205-6586
    FAX (202) 205-7382




 We’re on the Web!
      http://
   www.sba.gov/ig
